<html>
<title> - CHICAGOLAND TRANSPORTATION NEEDS FOR THE 2016 OLYMPICS</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]



 
         CHICAGOLAND TRANSPORTATION NEEDS FOR THE 2016 OLYMPICS

=======================================================================


                                (110-85)

                             FIELD HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                          HIGHWAYS AND TRANSIT

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                     OCTOBER 29, 2007 (Chicago, IL)

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure


             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE



                     U.S. GOVERNMENT PRINTING OFFICE

39-945 PDF                 WASHINGTON DC:  2007
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001



                 JAMES L. OBERSTAR, Minnesota, Chairman

NICK J. RAHALL, II, West Virginia,   JOHN L. MICA, Florida
Vice Chair                           DON YOUNG, Alaska
PETER A. DeFAZIO, Oregon             THOMAS E. PETRI, Wisconsin
JERRY F. COSTELLO, Illinois          HOWARD COBLE, North Carolina
ELEANOR HOLMES NORTON, District of   JOHN J. DUNCAN, Jr., Tennessee
Columbia                             WAYNE T. GILCHREST, Maryland
JERROLD NADLER, New York             VERNON J. EHLERS, Michigan
CORRINE BROWN, Florida               STEVEN C. LaTOURETTE, Ohio
BOB FILNER, California               RICHARD H. BAKER, Louisiana
EDDIE BERNICE JOHNSON, Texas         FRANK A. LoBIONDO, New Jersey
GENE TAYLOR, Mississippi             JERRY MORAN, Kansas
ELIJAH E. CUMMINGS, Maryland         GARY G. MILLER, California
ELLEN O. TAUSCHER, California        ROBIN HAYES, North Carolina
LEONARD L. BOSWELL, Iowa             HENRY E. BROWN, Jr., South 
TIM HOLDEN, Pennsylvania             Carolina
BRIAN BAIRD, Washington              TIMOTHY V. JOHNSON, Illinois
RICK LARSEN, Washington              TODD RUSSELL PLATTS, Pennsylvania
MICHAEL E. CAPUANO, Massachusetts    SAM GRAVES, Missouri
JULIA CARSON, Indiana                BILL SHUSTER, Pennsylvania
TIMOTHY H. BISHOP, New York          JOHN BOOZMAN, Arkansas
MICHAEL H. MICHAUD, Maine            SHELLEY MOORE CAPITO, West 
BRIAN HIGGINS, New York              Virginia
RUSS CARNAHAN, Missouri              JIM GERLACH, Pennsylvania
JOHN T. SALAZAR, Colorado            MARIO DIAZ-BALART, Florida
GRACE F. NAPOLITANO, California      CHARLES W. DENT, Pennsylvania
DANIEL LIPINSKI, Illinois            TED POE, Texas
DORIS O. MATSUI, California          DAVID G. REICHERT, Washington
NICK LAMPSON, Texas                  CONNIE MACK, Florida
ZACHARY T. SPACE, Ohio               JOHN R. `RANDY' KUHL, Jr., New 
MAZIE K. HIRONO, Hawaii              York
BRUCE L. BRALEY, Iowa                LYNN A WESTMORELAND, Georgia
JASON ALTMIRE, Pennsylvania          CHARLES W. BOUSTANY, Jr., 
TIMOTHY J. WALZ, Minnesota           Louisiana
HEATH SHULER, North Carolina         JEAN SCHMIDT, Ohio
MICHAEL A. ACURI, New York           CANDICE S. MILLER, Michigan
HARRY E. MITCHELL, Arizona           THELMA D. DRAKE, Virginia
CHRISTOPHER P. CARNEY, Pennsylvania  MARY FALLIN, Oklahoma
JOHN J. HALL, New York               VERN BUCHANAN, Florida
STEVE KAGEN, Wisconsin
STEVE COHEN, Tennessee
JERRY McNERNEY, California
LAURA A. RICHARDSON, California

                                  (ii)



            SUBCOMMITTEE ON HIGHWAYS, TRANSIT AND PIPELINES

                   PETER A. DeFAZIO, Oregon, Chairman

NICK J. RAHALL II, West Virginia     JOHN J. DUNCAN, Jr., Tennessee
JERROLD NADLER, New York             DON YOUNG, Alaska
ELLEN O. TAUSCHER, California        THOMAS E. PETRI, Wisconsin
TIM HOLDEN, Pennsylvania             HOWARD COBLE, North Carolina
MICHAEL E. CAPUANO, Massachusetts    RICHARD H. BAKER, Louisiana
JULIA CARSON, Indiana                GARY G. MILLER, California
TIMOTHY H. BISHOP, New York          ROBIN HAYES, North Carolina
MICHAEL H. MICHAUD, Maine            HENRY E. BROWN, Jr., South 
BRIAN HIGGINS, New York              Carolina
GRACE F. NAPOLITANO, California      TIMOTHY V. JOHNSON, Illinois
MAZIE K. HIRONO, Hawaii              TODD RUSSELL PLATTS, Pennsylvania
JASON ALTMIRE, Pennsylvania          JOHN BOOZMAN, Arkansas
TIMOTHY J. WALZ, Minnesota           SHELLEY MOORE CAPITO, West 
HEATH SHULER, North Carolina         Virginia
MICHAEL A ARCURI, New York           JIM GERLACH, Pennsylvania
CHRISTOPHER P. CARNEY, Pennsylvania  MARIO DIAZ-BALART, Florida
JERRY MCNERNEY, California           CHARLES W. DENT, Pennsylvania
BOB FILNER, California               TED POE, Texas
ELIJAH E. CUMMINGS, Maryland         DAVID G. REICHERT, Washington
BRIAN BAIRD, Washington              CHARLES W. BOUSTANY, Jr., 
DANIEL LIPINSKI, Illinois            Louisiana
DORIS O. MATSUI, California          JEAN SCHMIDT, Ohio
STEVE COHEN, Tennessee               CANDICE S. MILLER, Michigan
ZACHARY T. SPACE, Ohio               THELMA D. DRAKE, Virginia
BRUCE L. BRALEY, Iowa, Vice Chair    MARY FALLIN, Oklahoma
HARRY E. MITCHELL, Arizona           VERN BUCHANAN, Florida
LAURA A. RICHARDSON, California      JOHN L. MICA, Florida
JAMES L. OBERSTAR, Minnesota           (Ex Officio)
  (Ex Officio)

                                 (iii)

                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    vi

                               TESTIMONY

Arnot, Doug, Director of Sports/Operations, Chicago 2016 
  Committee, Chicago, Illinois...................................     5
Byrne, Tom, Commissioner, Chicago Department of Transportation, 
  Chicago, Illinois..............................................     5
Holst, Kathleen, Executive Director, Illinois Road and 
  Transportation Builders Association, Itasca, Illinois..........    20
Huberman, Ron, President, Chicago Transit Authority, Chicago, 
  Illinois.......................................................     5
Kennedy, David, Executive Director, American Council of 
  Engineering Companies-IL, Springfield, Illinois................    20
Pagano, Phil, Executive Director, Chicago Metra, Chicago, 
  Illinois.......................................................    20
Ross, T.J., Executive Director, Pace Suburban Bus................    20
Sees, Hon. Milton R., Secretary, Illinois Department of 
  Transportation, Springfield, Illinois..........................     5
Schillerstrom, Robert J., Chairman, Dupage County Board, Wheaton, 
  Illinois.......................................................     5
Whitley, Douglas, Co-Chair, Transportation for Illinois 
  Coalition, Springfield, Illinois...............................    20

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

DeFazio, Hon. Peter A., of Oregon................................    30
Rush, Hon. Bobby L., of Illinois.................................    31

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Arnot, Doug......................................................    47
Byrne, Thomas G..................................................    51
Holst, Kathleen..................................................    56
Huberman, Ron....................................................    68
Kennedy, David E.................................................    88
Pagano, Philip A.................................................    90
Ross, T.J........................................................    95
Schillerstrom, Robert J..........................................    98
Whitley, Doug....................................................   102

                        ADDITIONS TO THE RECORD

Chicagoland Bicycle Federation, written statement................   109
Environmental Law & Policy Center, Kevin Brubaker, High-Speed 
  Rail Project Manager, written statement........................   110
Hispanic American Construction Industry Association, Cesar 
  Santoy, Executive Director, written statement..................   115
Metropolitan Mayors Caucus, Jeffery D. Schielke, Executive Board 
  Chair, and Mayor, City of Batavia, written statement...........   118
[GRAPHIC] [TIFF OMITTED] 39945.001

[GRAPHIC] [TIFF OMITTED] 39945.002

[GRAPHIC] [TIFF OMITTED] 39945.003

[GRAPHIC] [TIFF OMITTED] 39945.004



                    PREPARING FOR THE 2016 OLYMPICS

                              ----------                              


                        Monday, October 29, 2007

                  House of Representatives,
    Committee on Transportation and Infrastructure,
                      Subcommittee on Highways and Transit,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 10:00 a.m., at 
the Dirksen Federal Courthouse, 219 South Dearborn Street, Room 
2525, 25th floor, Chicago, Illinois, Hon. Peter A. DeFazio 
[Chairman of the Subcommittee] Presiding.
    Mr. DeFazio. The Committee on Transportation and Transit 
will come to order. We're here this morning at the request of 
Representative Lipinski. We'll hear from him in a moment. I'm 
pleased to be here. I'm pleased to be in the great City of 
Chicago, which is the U.S. Nominee--Gentlemen, please be 
seated. You don't need to stand here--the U.S. Nominee to 
represent our country and host the Olympic Games in 2016.
    I think of Chicago, in terms of the basic infrastructure, 
as the crossroads of the world, the crossroads of the country 
in terms of freight, passenger traffic. I usually associate 
Chicago with landing and changing planes at O'Hare. But I'm 
really pleased to come downtown this time and experience the 
city a little more fully. This Committee wants to hear from 
folks who are advocating for the Olympic Games to come here to 
Chicago. We need to hear what Chicago has in place, which I 
think is awesome in terms of the existing transit systems. And 
also, what additions Chicago feels it might need if it should 
become the successful host.
    Should they become the successful host representing the 
United States of America, then, of course, there will be a 
concern by the United States Congress that we partner with you 
as we did with the Atlanta Olympics. Most of the federal 
partnership are, you know, somewhat transit, but the greatest 
amount of security. We would expect it might be similar in this 
matter. I also serve on the Homeland Security Committee, and 
would be interested in any contribution people have in that 
area as well.
    I will ask at this point for unanimous consent that the 
Honorable Bobby Rush, when he comes, be allowed to sit with the 
Committee. He's not a regular Member of the Committee.
    Hearing no objection that will be allowed. With that, I 
will turn to the senior Republican on the Committee, the 
Honorable Mr. Duncan, from the great state of Tennessee.
    Mr. Duncan. Well, thank you very much, Mr. Chairman, and I 
appreciate your calling this hearing. About 10 years ago or so, 
when I was Chairman of the Aviation Subcommittee that I led a 
field hearing near O'Hare Airport on air traffic control needs, 
and about four years ago here, when I was Chairman, we had a 
lot of resources on the Environment Subcommittee at that time. 
And Mayor Daley was a witness for us at a field hearing held at 
the Chicago Aquarium. And so, this is the third field hearing I 
have participated in in this area.
    I've been to Chicago many times. I think it's a great city. 
And I did not--after the Aviation Field hearing they took us to 
Wrigley Field, and we saw it. It was my first visit to Wrigley 
Field, and we saw a no-hitter brought by the Cubspitcher, with 
two outs in the ninth inning. And I always will remember that.
    And--and at any rate, we're--we're getting ready to start 
public hearings all across the country in preparation for a 
major six-year highway bill in 2009. And so, we will be--This 
is a--This is really on the front end of those hearings, this 
is the first real field hearing we've had on some of those 
needs, and that's because Chicago is such a great and important 
city that we thought it was very appropriate for Chairman 
DeFazio to bring us here.
    In addition to that, the six years that I chaired the 
Aviation Subcommittee, Congressman Bill Lipinski was my Ranking 
Member. And I heard--There were several people who said they 
didn't think that a Chairman Ranking Member in the Congress, at 
that time, had a close or a better working relationship as we 
did with the Congressmen. We did not deal with Congressman Bill 
Lipinski, he was in Great Britain. And I have renewed that 
great respect and admiration for the current Congressman 
Lipinski. Both--both the Lipinskis are really district-oriented 
congressmen, and really care about their--their homes and their 
home areas and their districts. And so, it's an honor to be 
here with Congressman Lipinski.
    And with that, I'll just say that, in--in addition, we want 
to help on the Olympic needs, but we also want to know about 
other needs that the City of Chicago has in the highway and 
transit area over the next six or seven years. Thank you very 
much.
    Mr. DeFazio. Thank you, Mr. Duncan. I will now turn to 
Representative Lipinski to hear his opening statement. And 
since my Republican colleague has already waxed so poetic about 
him, which says something for him, I don't feel that I need 
to----
    Mr. Lipinski. You can go ahead and add, too.
    Mr. DeFazio. Let's just say that it's Dan's second term. 
But he has already become a valuable Member of the 
Transportation and Infrastructure Committee. I'm proud to serve 
with him. I, too, enjoyed a strong working relationship with 
his dad, who was a leader on many transportation issues, and 
the reputation is being carried on. I'll turn now to 
Congressman Lipinski.
    Mr. Lipinski. I thank you, Chairman DeFazio and Ranking 
Member Duncan. I'd like to thank you for coming out this 
morning. We define from our requests the rules of this hearing, 
and bring the Subcommittee here highlighting the transportation 
needs of the Chicago area for the 2016 Olympics and beyond. I'd 
also like to thank all our witnesses for your participation and 
your input in this hearing. And I know there are a number of 
individuals and organizations that wish to participate in 
today's proceedings, but were unable to do so because of time 
constraints, and all of the testimony that the Chairman has 
raised at the unanimous consent that the written testimony be 
put into the record.
    Mr. DeFazio. As you pointed out to me, that I haven't asked 
for that, but now I will. I would ask the consent that we 
receive any written testimony for this hearing and hold the 
record open for thirty days.
    Mr. Lipinski. Thank you, Mr. Chairman. I know there are 
also others who are out here in the hallway, who were--wanted 
to make sure that their--their voices were heard. And, I 
certainly invite them to bring testimony to the Subcommittee. 
And also, I invite them, if they would like to meet with me 
about local issues, certainly can come or write to my--to my 
office, make an appointment and you can come and talk about 
the--the local issues in regard to transit.
    Now, the 2016 Olympic's bid is a great opportunity for all 
of Chicagoland. All of us who live here know that Chicago is 
the greatest city in the world. The Olympics would be our 
opportunity to showcase our region to more than two million 
visitors, and to over four billion TV viewers around the world. 
But this case is not just about Chicagoland. It is crucial to 
remember that this bid is America's bid. That is why I asked 
Chairman DeFazio to bring the Subcommittee here, because our 
government certainly has an interest because Chicago's bid is 
America's bid.
    Hosting the Olympics creates a dramatic short-term service 
in demand for transportation. During the 1996 Olympics, the 
last summer games held in the U.S., Atlanta hosted over two 
million visitors. Fortunately, Chicago already has a world-
class transportation system.
    We sit in the crossroad of the country for planes, trains 
and automobiles. Chicago is home to two of our nation's busiest 
airports, O'Hare and Midway, with O'Hare being the world's 
second busiest airport. Chicago ran the most important rail hub 
in the world. There's over 2.5 million passengers passing 
Amtrak Chicago hub each year. Metropolitan Chicago also has 
25,000 miles of road, including 485 miles of freeway. The CTA, 
Metra and Pace provides extensive public transportation 
services throughout Metropolitan Chicago, including over two 
million rides each weekday. And Chicago has extensive bike and 
walking paths.
    Chicago's extended infrastructure in transportation 
capability means that we are ready and well-suited to host the 
Olympics. In fact, the transportation systemis the much 
stronger--strongest point for the U.S. Olympic Committee. 
However, there's always a need to continue investing and 
improving your system, and not only for the additional 
transportation demand of the Olympics.
    Even without the Olympics, the transportation demands will 
increase as the region's--region's population is expected to 
grow by more than one million in the next 20 years. And right 
now, our Committee is beginning to discuss the next highway 
funding bill, which I hope will provide half a trillion dollars 
in transportation funding across the country. Chicago needs to 
have continued strong federal support in this bill when we pass 
it in 2009. And I'm hopeful that this hearing will help lead 
the way in this.
    The region has already begun a substantial project for our 
future. For example, the Federal Government, the State of 
Illinois, City of Chicago, Metra, the nation's great railroad, 
have covered a 1.5-billion-dollar-CREATE project, which will 
modernize the quality and commuter railways. CREATE will 
improve passenger rail service, decrease congestion on the 
road, and keep Chicago's vital rail hub as now is. The O'Hare 
Modernization Project is another critical transportation 
improvement that is currently taking place. And there are many 
other road, rail and public transit projects that are planned, 
or even underway, to make our world-class transportation system 
even better, including energy efficient--energy efficiency 
products intended to improve upon Chicago's Green reputation. I 
am sure that the Chicago Olympics will be the greatest Olympics 
in history.
    So, to keep Chicago the city that--where vision and 
planning are necessary, I look forward to hearing from our 
witnesses today on their vision and their plans for 
transportation for the Chicago region for the 2016 Olympics and 
beyond. Thank you.
    Mr. DeFazio. Thank you. Bobby, you're at the end, if that's 
where you'd like to sit. And that was approved. And again, 
brief opening statements, to stay on schedule, if you'd like to 
go now.
    Mr. Rush. I do have a brief statement, Mr. Chairman. First 
of all, we want to thank you and I welcome you to the City of 
Chicago. I want to thank the Ranking Member Duncan and my 
colleague from the Third Congressional District, Congressman 
Lipinski,and I salute him in terms of his outstanding 
leadership on--on transportation issues. It is a relief, I am 
pleased--It is a priv---privilege to participate in this 
hearing on such an important issue. We're marching into 
Congress, trying to work hard with the Subcommittee--with this 
Committee rather, Subcommittee, to ensure that Chicago receive 
the federal funds and resources necessary to keep our city 
moving forward.
    This hearing is important because it will allow us to begin 
deliberation on the re-authorization of the safe 
accountability--accountable best moving efficient 
transportation that we have, I'd like to think we're moving to 
this part of the bill in 2009. Mr. Chairman, in the interest of 
time, and--and--and--and I would ask that you do receive to 
hear my entire statement. But I also, Mr. Chairman, want to 
just emphasize that in my District, there are, indeed, an 
oversight of transportation planning, an oversight--a much 
oversight of the interchange between Interstate 294 and 
Interstate 57.
    They are, indeed, like two ships passing in the night. 
These two major interstates will divide the northern 
interchange connection. It's my understanding that the only two 
other interstates in the nation that were built, like, in a 
similar manner. While the State of Illinois has spent, and our 
county spent millions of dollars to rehabilitate both I-294 and 
I-57 to improve in the area of intersection, both took off, and 
planning for the proposed interchange connections of each are 
taking place.
    Indeed, over eight interstates crossing and/or connected to 
I-57, only I-294 lacks a direct interchange. Likewise, in this 
case, if--I-294 has a seven-interstate problem and are 
connected to it. It is a priority for the economic viability, 
for the reason that we address this issue. And I look forward 
to working with the Subcommittee to identify capital and 
resource solutions to this really significant problem that 
might--that the constituents in my district are--are currently 
serving on. Mr. Chairman, I again thank you so much for my 
statement, myself and my time.
    Mr. DeFazio. All right. Thank you, gentlemen, for being 
brief. You get extra credit in the request for this again. I'm 
going to change the order a bit because we have one person to 
testify who is on a very tight timeline. So, I first recognize 
Ron Huberman from the Chicago Transit Authority.

     TESTIMONY OF RON HUBERMAN, PRESIDENT, CHICAGO TRANSIT 
 AUTHORITY, CHICAGO, ILLINOIS; DOUG ARNOT, DIRECTOR OF SPORTS/
  OPERATIONS, CHICAGO 2016 COMMITTEE, CHICAGO, ILLINOIS; HON. 
       MILTON R. SEES, SECRETARY, ILLINOIS DEPARTMENT OF 
TRANSPORTATION, SPRINGFIELD, ILLINOIS; TOM BYRNE, COMMISSIONER, 
CHICAGO DEPARTMENT OF TRANSPORTATION, CHICAGO, ILLINOIS; ROBERT 
   J. SCHILLERSTROM, CHAIRMAN, DUPAGE COUNTY BOARD, WHEATON, 
                            ILLINOIS

    Mr. Huberman. Great. Chairman and Members of the Committee, 
thank you for allowing me to testify.
    As we present the need of the CTA, the Chicago Transit 
Authority, this presentation I'm gonna go through very quickly 
here, is really going to highlight two different factors.
    The first factor is that, we would very well like the 
Olympics to be here in Chicago, in that if brought up to a good 
state of repair, could handle the current Olympic process as it 
exists. Clearly, some of the New Starts that we're going to 
present, that we believe we can easily complete by the 
Olympics, would add tremendous value to making the Olympic 
venue transportation work more effectively.
    But really, the core issue for the Chicago Transit 
Authority is that we have the lines, we have the systems all in 
very close locations to the venues where these Olympics--where 
the Olympics is proposed. Part of the Olympic plan here is very 
competitive, given what a tight footprint it's in. CTA has a 
great deal of presence within that footprint. But our challenge 
is going to be without capital dollars coming into the system 
to bring it to a state of good repair, it makes it more 
challenging.
    Just a quick history of the Chicago Transit Authority. 
We're the second largest transit property in the country. We 
move 1.6 million riders every single day on eight rail lines, 
over 242 miles of track. There are 154 bus routes covering 
2,500 miles. The Loop Elevated has a great history. It went in 
place in 1897. That is the steel structures that you may see as 
you drive around the city, these are original 1897 structures. 
The north Red Line was built in 1900. Two of our eight bus 
garages were built before 1910 as horse barns. The State Street 
subway, which is the Blue Line, which clearly runs right in 
front of the Dirksen Federal Building here, we started in 1943, 
and was pre-World War II design, completed in 1951.
    This is a system that, with the success of Chicago's urban 
core and the region, has seen increased ridership over eight of 
the last nine years. Our biggest challenge is that we have 6.3 
billion in unfunded capital needs. And really, they're not--
they don't scream out in one particular area, but really across 
the whole system. And I'm gonna walk through some of the 
highlights of that.
    Part of our challenge has also been CTA's declining share 
of federal formula funds. Since 1989, CTA's share of formula 
funds has steadily decreased. So, for example, if you look at 
this particular chart here, gentlemen, you can see if the 
formula share had remained the same, the CTA would receive an 
additional 1.9 billion dollars. We believe that this is 
occurring for several reasons. One is, more properties are 
receiving this funding as the population shifts into the 
sunbelt. It's really what we believe is the major phenomena.
    Second of all, we have new systems developed in the New 
Start Program, which is a great use of those dollars, 
obviously. Those systems now come on line, and also share into 
the--into the formula funds. The challenge for the older 
properties in this phenomena is not alone to Chicago, with New 
York, Philadelphia, Boston, many of the old transit properties 
facing the same issues, which is as our share decreases as more 
rail and properties come on line, we have fewer dollars by 
which to maintain the systems, which very often, given their 
age, are more capital intensive to begin with.
    Let me walk you through two examples of--of some of the 
challenges we have in what makes up that six billion dollars in 
unfunded capital. We have 1.2 million feet of track, 22 percent 
of it is the slow zones. And quite literally, gentlemen, as you 
may be aware, we put in a slow zone, one where it is not safe 
to operate at full speed. Close to one quarter of Chicago's 
system is currently a slow zone. It has to do primarily with 
deteriorating ties and deteriorating tracks.
    Our system has 121 viaducts and bridges. We have 87.5 miles 
of two-track elevated structures and 8.3 miles of embankment 
walls. The majority of these were literally turn-of-the-century 
structures, which has now gone beyond their useful life. In 
this particular picture here, you see the very common 
phenomenon around the CTA property, which is steel structures 
that were placed underneath the concrete structure to provide 
temporary stability. This is an example from the north side of 
our city. This original structure was built in 1922. Our steel 
supports were placed in the 1990s as a result of structural 
instability. They were put in as a temporary measure. They 
exist today.
    Mr. Chairman?
    Mr. DeFazio. I'm just wondering if you can move the screen 
for us a little bit----
    Mr. Huberman. Sure.
    Mr. DeFazio. --so we can--There you go. That's good. Thank 
you.
    Mr. Huberman. I apologize, Mr. Chairman.
    Mr. DeFazio. Sure.
    Mr. Huberman. Okay. So, here again, it's a 1922 structure, 
steel supports put in the 1990s, which was meant to be 
temporary. And, however, they remain today because of lack of 
funding in this particular area.
    If you take a look at the elevated structure, 87 miles of 
elevated structures, many that literally were built in the very 
early 1900s. Again, a lack of capital has not allowed us to 
maintain the system in a state of good repair. And what you 
have is crumbling foundation, what you have is busted 
infrastructure. With minimal capital dollars in this area, we 
can certainly extend the life of this infrastructure for a 
great deal of time.
    If you take a look at our rolling stock, 990 million in 
this particular deficit, 12 percent of our fleet was purchased 
in 1969/1970; 16 percent of that fleet was purchased in 1976. 
We went back to that 12 percent that's been in service since 
1969, it was designed in '63, ordered in '65, delivered in '69, 
to give you a sense of how old this rolling stock is. We rely 
on that rolling stock every day to move people around the 
system.
    One of the challenges of the age of that particular rolling 
stock, Chairman and Members of the Committee, is that we 
operate, on average, 18 to 24 hours each day. And it's, 
obviously, beyond the FTA standard life of 25 years. These cars 
travel collectively an average of 225,000 miles daily, moving 
640,000 people. One of the challenges we've had on our 
operating budget, is that if we delay overhaul, mid-life and0 
we cover just keeping rolling stock in good condition, we're 
seeing our operating deficits flow in terms of maintenance. 
Again, this is a big challenge for us.
    Since 2003, due to lack of operating funds with the local 
issue here, which we are fighting in Springfield right now for 
additional operating funds, we've been transferring from 
capital funds to bring into operations, those operating 
shortfalls, which again, is causing a deterioration in the 
system. Our bus fleet is near 2,196 buses, 34 percent of that 
fleet is greater than 16 years old. An additional 18 percent is 
greater than 12 years old. Obviously, the FTA standard for a 
bus is 12 years old. These buses travel 214,000 miles every day 
with 960,000 people.
    So, for example, we have 400 buses with over 450,000 miles 
on the buses. Obviously, with Chicago winter and salt, we have 
a deterioration problem with the body. We have 536 buses with 
over 580,000 miles on them. These are 1991 buses. They operate 
an average of 17 hours a day when they hit the street. We have 
many passengers very frustrated with the CTA over broken buses. 
We are equally frustrated. In short of capital dollars to 
replace this, we--we're going to see it continue to 
deteriorate.
    We have 480 buses with over 255,000 miles on them with 
additional problems. If we take a look at our maintenance and 
support facilities, we have 525 facilities, I think there's 
also 144 stations, nine terminals.
    What you're seeing here is a turn-of-the-century station 
with ceiling damage. That same ceiling structure provides 
support for the elevated train that travels above. We have 87 
elevated stations, 22 subway and 35 at ground level. Twenty-
three are more than 80 years old. You can imagine the challenge 
there.
    Quickly going into the New Start issues, is there are four 
that we think would add a great deal of value to the Olympics. 
The Yellow line, the Circle, the Orange and the Red are both 
moving quickly. To which, if we take a look again at New Start, 
the same phenomenon that's coming from the formula funds, it's 
referring to the New Start dollars.
    While we are the second largest transit property in the 
country, moving 1.6 million, our percentage in New Start 
dollars is 3.2 percent. For many, the same phenomenon that's 
occurring in formula funds.
    The Red Line essentially pushes to 130th Street. We see 
great value in this particular extension, because it would 
allow a great--more transit-oriented development along the 
various stops in the loop, and move people into the Olympic 
arena.
    The Orange Line extension is the one that travels to 
Midway. Extending it down to 79th Street area and Ford City 
Mall will, obviously, add great value there. There's additional 
hotels there for--around Midway Airport that are currently 
under development, and after developed, that would add value in 
being able to transport those people by rail into the Olympic 
arena.
    The Circle Line is by far our most important New Start. As 
you may be aware, we have a loop that all trains in our system 
go in and out of. This creates an outer loop. But our most 
concentrated investment would add 100,000 new riders to the 
system every day by connecting many of our existing lines and 
trading out of the loop. Nothing would add greater value to the 
Olympics than this particular New Start here.
    And finally, the Yellow Line going north to Old Orchard 
Mall, which is another New Start, would allow us to really 
enable all the individuals in the northern suburbs of Chicago 
to much more easily access downtown in terms of attending the 
Olympics. And, gentlemen, that is a quick overview of--of the 
state of the Chicago Transit Authority, our current challenge 
is to getting to a state of good repair, and what will be 
considered value at the Olympics if we can complete those New 
Starts in time for the opening Games. Thank you.
    Mr. DeFazio. Thank you. It's a tremendous amount of 
material covered in a short time.
    And I'd like to point out that we do have the little light 
there, because we want to give everybody that's been invited an 
opportunity to testify, and thank you for using it.
    And we will now turn to Mr. Arnot and proceed with 
testimony.
    Mr. Arnot. Thank you, Mr. Chairman, Ranking Member Duncan, 
Congressman Rush, Congressman Lipinski, for the opportunity to 
be here this morning. My name is Doug Arnot. I am the Senior 
Vice President for Games Operations for Chicago 2016. Chicago 
2016 is a private, not for profit organization that is bidding 
for the 2016 Olympic and Paralympic Games on behalf of the City 
of Chicago. Please note that in all references below I am 
speaking about the Olympic Games and the Paralympic Games.
    Chicago is currently bidding for the 2016 Games against six 
other world-class cities. I'd like to note that at no time 
should any of my comments be taken as though we assume that we 
will be successful. My role at Chicago 2016 is to oversee all 
operational and planning aspects related to the bid, which 
includes venues, security and transportation. It is worth 
noting that I have been involved in the planning and 
preparation for four Olympic Games, including Los Angeles, 
Atlanta, Sydney and Salt Lake City.
    One of the most challenging aspects of the Olympic Games is 
Games Transport System. One of the greatest assets of Chicago's 
bid for the 2016 Games is Chicago's significant transport 
infrastructure. Chicago 2016 is committed to hosting both the 
greenest games possible and moving spectators 100 percent 
within our Olympic transport system. That is, it will probably 
be an advantage on the public transportation, supplemented by 
the Olympic bus system.
    However, it is important to note a few things regarding 
transport and transport funding in Chicago as they relate to 
our bid plans. Chicago's Olympic bid plans do not call for any 
significant additional, or new, transportation infrastructure 
to be built in order to host the Games. Yet, we are fully 
supportive of any improvement to the city and regional 
transport that will benefit Chicago for its user regardless of 
hosting the Games. If the bid and the Olympics were to 
accelerate projects, they should be projects that are in the 
best interest of the future of Chicago regardless of the Games. 
Of course, improvements to the city and regional transport 
would enhance Chicago's bid.
    I'd like to take a few minutes to discuss the specifics 
regarding our Olympic transportation proposals and planning. 
Chicago 2016 Olympic transport system would have three goals: 
To provide transportation for all athletes, Olympic family and 
accredited persons through a dedicated Olympic transport 
system; to safely and effectively transport spectators and 
Olympic guests via public transport; to minimize the Games 
transport impact on the citizens of Chicago.
    Our venue plan was conceived with these--these three goals 
in mind, taking advantage of our existing transportation 
infrastructure. The plans for the proposed Games in Chicago are 
compact and city-central. The spectator transport system would 
utilize Chicago's transportation infrastructure, augmented by 
the Olympic transportation overlay. It's important to know that 
an Olympic transport system is very different from a normal 
transport system in any city.
    Spectators will use public transportation connected 
directly to the venues by either a short walk or a shuttle. 
There will be a significant Olympic fleet of buses, vans and 
some cars for transport of athletes, officials, Olympic 
workforce and special international guests. Logistics 
operations are concentrated in the off hours. As in all Olympic 
cities, effective transportation will requirecooperation from 
the general public, after a significant public information 
program that will reduce the background traffic for the Games.
    As in any special event, only permanent vehicles will be 
permitted to pass through vehicle security checkpoints with 
appropriate privileges for neighborhood residents. While not 
required, improvements to Chicago's transportation system and 
roadways would certainly enhance the bid, the international 
reputation and perception of Chicago in its bid.
    This is where the Federal Government can assist Chicago in 
2016, which is now not justChicago's bid, but America's bid, to 
bring the Olympic Games back to American soil. In the past, 
federal involvement around the Games in Atlanta and Salt Lake 
City, in the area of transportation, were very helpful to the 
Games' ultimate success. We and the City of Chicago would 
greatly appreciate your support.
    In conclusion, I would like to repeat a few comments that I 
think are worth stating again. Chicago 2016 is not asking for 
specific improvements for the Olympics, rather the funding and 
backing of already-planned transit improvements. Chicago 2016 
hopes to have an Olympic transport plan that addresses all the 
demands created by hosting the Games. Certainly, any 
improvements enabled by additional funding would enhance that 
plan. With your support, Chicago has a fantastic chance to 
bring the 2016 Games to American soil, and we are America's 
bid, not just Chicago's.
    Finally, I'd like to take a step back from the technical 
side of the bid and remind everyone why we're here, and why 
we're bidding for the Olympic Games. We're bidding to inspire 
the youth of our city, our region, and our nation and the 
world. And to be inspired by the power of sport and the power 
of the Olympic movement. We're bidding to show that Chicago can 
be a fantastic host to the world, through the Olympic values of 
friendship, fair play and respect, we hope to show the rest of 
the world that America can inspire the world. Thank you.
    Mr. DeFazio. Thank you, Mr. Arnot. Secretary Sees.
    Mr. Sees. Chairman DeFazio, Ranking Member Duncan, 
Congressman Lipinski, Congressman Rush and other distinguished 
attendees, thank you for coming to Chicago for this historic 
first ever Highways and Transit Subcommittee Field Hearing in 
Chicago. I'm Milton R. Sees, Secretary of Transportation for 
the State of Illinois. Hopefully, during your visit, you've 
already experienced some of what makes Illinois, along with the 
Chicago area, a world-class transportation hub. You may have 
experienced the nation's second busiest airport, O'Hare 
International, the nation's second biggest transit system, RTA 
and its three service wards, CTA, Metra and Pace. Or, perhaps, 
you've seen and traveled on the third largest interstate 
highway system in the U.S.
    Recently, our agency has been engaged in the most 
aggressive and comprehensive reconstruction project ever 
undertaken on a continuously active expressway, the Dan Ryan. 
During this time, we brought it in on budget and under time. We 
have taken steps throughout the Chicagoland region to mitigate 
traffic and congestion with the Dan Ryan, routine upgrades, the 
widening of I-55, and the facelift to the Edens Expressway. And 
all of this has been undertaken while keeping a mindful eye on 
the minority communities involved in these projects.
    We are also home to six of this country's seven class I 
railroads, making this area the nation's largest freight rail 
hub. In short, IDOT has been very, very busy upgrading and 
improving one of the best transportation systems in the world. 
Illinois works, and Chicago is the city that works along with 
us. The State of Illinois and the Department of Transportation 
stand ready to assist the City of Chicago in their bid for the 
2016 Olympics, and we will work with them on specific needs as 
they develop their bid to the International Olympic Committee.
    At this time, I would like to touch on a couple of topics 
that I feel are highly relevant to these efforts. The first is 
technology. Illinois has been a leader in the development and 
employment of intelligent transportation systems known as ITS. 
We recognize the technology has provided significant benefits 
to the traveling public in the way of traffic 
management,operational improvements, congestion and safety 
relief. We believe that these kinds of technology tools, which 
we would be expanding and enhancing, will be essential to 
moving people around the Olympic sites when the 2016 Games come 
to Chicago. We would ask the Subcommittee to continue to help 
not only Chicago, but all of Illinois with funding to implement 
these technologies, along with the emerging technology that 
will become available in the future.
    The second area that I wish to touch on is innovation as it 
relates to the change in project delivery and process. At this 
time, we all need to become innovated. The project delivery 
process needs to be changed and simplified. Currently, it takes 
too long to get a major transportation project from conception 
to operation. The Federal Government, along with their 
transportation partners, the states need to commit to working 
together over the next two years to address this issue.
    The number of federal laws and related regulations, 
requirements and guidance that transportation agencies----
    Voice. I need to talk.
    Mr. Sees. --must comply----
    Voice. Why do I have to----
    Mr. DeFazio. Ma'am, ma'am.
    Voice. (Inaudible chanting.)
    Mr. DeFazio. Ma'am, the Committee will be----
    Voice. (Inaudible chanting.)
    Mr. DeFazio. Ma'am, ma'am. The Committee needs to come to 
order.
    Voice. (Inaudible chanting.)
    Mr. DeFazio. Ma'am, if you won't be quiet, we'll have to 
have you removed. I'm sorry.
    Voice. (Inaudible chanting.)
    Mr. DeFazio. There will be a recess until we can come to 
order.
    [Recess.]
    Mr. DeFazio. Okay. We're back to order. Representative Rush 
has made headway with the protestors. We're going to come back 
to order. We will need the room to be quiet.
    I'm going to ask one more time, please proceed. Restore our 
order. I have three times asked for order. And if we can't be 
in order we'll have to ask for people to be removed so we can 
complete the hearing.
    Okay. One more time. The press needs to return to their 
designated positions. Thank you.
    Okay. I'm asking the group to please just observe order and 
we will return to testimony.
    Okay. Okay. The Committee is now back in order. Secretary 
Sees, please continue.
    Mr. Sees. Thank you, Mr. Chairman. Before I go back to my 
remarks, I certainly want the Committee to understand that we 
at IDOT are working closely with the City of Chicago and the 
CTA to try and address the concerns that have been expressed 
here before the Committee by the citizens. We are committed to 
trying to preserve what will serve us for our transit, as well 
as continue to expand services available to--of those members 
of our citizen groups that are in need of special transit. So, 
having said that, I would like to return to my comments about 
innovation and trying to, at least, alter the project delivery 
process as it stands today with regard to major projects.
    As I was saying, currently it takes too long to get a major 
project from conception to operation. The Federal Government, 
along with their transportation partners, the states, need to 
commit to working together over the next two years to address 
this issue. The number of federal laws and related regulation 
requirements and guidance the transportation agencies must 
comply with has grown exponentially over the last 50 years, 
since we began the interstate era. The process must be 
simplified, more pragmatic, and more timely and less costly. We 
can no longer afford a process that takes 10 years or longer to 
get a project from phase one into design to complete the 
project. Time is money, and extended delays reduce the buying 
power of our transportation and transit dollars.
    In summary, IDOT has the expertise and the experience 
necessary to provide for any and all transportation needs that 
may arise as Chicago prepares to host the 2016 Olympics. This 
concludes my remarks. But I did want to respond to Congressman 
Rush's question about the interchange at I-57 and 294. This 
past summer, the Illinois general assembly included 16 million 
dollars in the FY-'08 budget to pay for design of the 
interchange. And we will select the design consultant in 
January, and we expect them to be in the field working this 
coming spring. So, we are working to address that, Congressman. 
But thank you for your continued interest and support in IDOT, 
and certainly the citizens in your district. Thank you, sir. 
And thank you, Mr. Chairman, that concludes my remarks.
    Mr. DeFazio. Okay. Thank you.
    Now, we'll turn to Mr. Tom Byrne, the Department of 
Transportation Commissioner.
    Mr. Byrne. Good morning Mr. Chairman and Members of the 
Subcommittee. I'm Thomas Byrne, Commissioner of the Chicago 
Department of Transportation. On behalf of Richard M. Daley, 
welcome to the City of Chicago. I come before you today to 
discuss transportation needs of the City of Chicago. While the 
2016 Olympics would present a unique set of challenges and 
opportunities for our city and state, should we be the selected 
city, Chicago needs to not begin and end with the 2016 Games.
    I'd like to start my testimony with a few statistics about 
Chicago's transportation system. Chicago has over 3,700 miles 
of streets and 1,900 miles of alleys. Our 36 movable bridges 
conduct over 25,000 operations per year, with another 46 fixed-
span bridges and 119 viaducts throughout our city. Our 19 
overpasses and underpasses help pedestrians and bicyclists 
traverse some of our busiest roadways safely and easily. We 
have 28,000 signalized intersections and 600 rail crossings.
    I throw these numbers out in their raw form to illustrate 
the sheer size of Chicago's surface transportation system, and 
therefore, the enormity of our need. Our transportation system 
is strong and effective. We get people where they are going in 
a safe and timely manner, but for far too long, we have been 
asked to do more with less and we have. But now, if we are to 
do more, we need more. And we believe we do have more to do.
    Today I'm going to focus on three of our primary areas of 
concern. These areas are bridges, roads and transit. Let's 
start with our bridges. As with the rest of the nation, 
Chicago's bridges are in great need. Our bridges not only 
provide our residents and visitors with routine transportation, 
they are also a critical link in our disaster preparedness 
plan. Should any incident occur that requires evacuation of the 
downtown area, whether terrorist related or not, it is our 
bridges spanning the Chicago River that will bear the brunt of 
traffic.
    As I mentioned, Chicago has 36 movable bridges. These 
bridges provide for the needs of both our road and water 
travelers. But they are extremely expensive to build and 
maintain. The reconstruction of a typical movable bridge can 
cost up to 40 million dollars, whereas a fixed span is 
generally in the 12-million-dollar range.
    Chicago has an aggressive bridge inspection and maintenance 
program. Because of our diligence, I am pleased to say that 
none of our 195 bridges and viaducts are in an unsafe 
condition. However, we do have 35 bridges that are in need of 
major rehabilitation if they are to continue to fulfill their 
transportation function in the future. The work needed to bring 
these bridges into acceptable state of repair is estimated to 
cost 554 million dollars.
    Moving to our roadway provides no relief in terms of need. 
Chicago has roughly 990 miles of arterial roadways. At the 
present day cost, which will surely rise in the years to come, 
we will require 833 million dollars to resurface the entire 
arterial system. Our arterial resurfacing program is designed 
to extend the life of pavement by 10 years. A complete 
reconstruction of an arterial is currently running about 7.5 
million dollars per mile, which equates to a staggering sum of 
just under 7.5 billion to reconstruct our arterial system. The 
number does not include work needed on the other 2,700 miles of 
residential streets through our great city.
    Another CDOT responsibility involves the City's transit 
system. The City of Chicago owns the subway system, the Red 
Line, the O'Hare Branch of the Blue Line and the Orange Line. 
Additionally, CDOT is responsible for the maintenance of all 
downtown transit stations. We have established a 15-year 
program of transit station renovation and construction 
projects. These projects are prioritized according to station's 
condition and safety considerations.
    Over the past 10 years, the City has programmed more than 
230 million dollars for transit station reconstruction. We rely 
heavily on the Congestion Mitigation and Air Quality Program 
for funding such projects. Over the next 15 years, we have 
identified over 700 million dollars in need for 13 transit 
station projects. An average of 54 million dollars per station. 
If you consider that from 2003 to 2007, CMAQ funding for the 
entire northeastern Illinois region averaged just under 70 
million dollars annually, you get a good idea as to the need 
for increased funding for this program.
    Mr. DeFazio. Mr. Byrne, I'll have to ask you to summarize 
if you can, because we're running on, and we're going to be 
tight on time because we're in a rush.
    Mr. Byrne. Two weeks ago I was in Washington D.C. And had 
the pleasure of meeting with Congressman DeFazio, Congressman 
Oberstar and Administrator Capka and Simpson of the FHWA and 
the FTA. I came away from my meeting with the Administrators 
concerned that they did not agree that additional funding is 
needed. They seemed more concerned over the process of 
earmarking than the lack of sufficient funding.
    I would like to end my testimony today by making it 
perfectly clear that funding available from federal, state and 
local sources is insufficient to meet the needs of our nation's 
transportation system, and that significant new revenue must be 
generated at all levels of government if we are to fulfill our 
essential responsibility to the American people by providing 
them with the finest transportation system in the world. Thank 
you for your consideration.
    Mr. DeFazio. Thank you. We will go to Mr. Robert 
Schillerstrom, DuPage County Board Chairman.
    Mr. Schillerstrom. Good morning, Mr. Chairman, Congressman 
Duncan, Congressman Lipinski and Congressman Rush. I want to 
thank you for the opportunity to address you about our region's 
transit and transportation needs for the 2016 Olympics. I 
wholeheartedly support the City's bid for the 2016 Olympics, 
and I applaud Mayor Daley for spearheading this effort that 
will showcase our dynamic region.
    Chicago is a vibrant, exciting city, rich in culture and 
flavor. It is a city of neighborhoods that is family friendly. 
It is a city of world-class museums and theaters, 
internationally respected universities, great cuisine and 
elegant shopping. We have magnific---magnificent parks and a 
stunning lakefront. Chicago deserves to be on the--on the world 
stage.
    I have been pleased to work with the City on a variety of 
projects. As Chairman of DuPage County, I've advocated for the 
expansion of O'Hare International Airport and successfully 
championed a western access to the airport as part of its 
modernization. That additional entrance to the nation's busiest 
airport will relieve gridlock when the world comes to Chicago.
    Western access to O'Hare was designated as a project of 
national importance and received significant funding thanks in 
great part to the support of the Members of this Committee. It 
is critical that western access continue to be a priority and 
continue to be funded appropriately.
    I have worked throughout the region with our Illinois 
delegation to support CREATE. CREATE is a visionary idea that 
will greatly improve both freight and passenger rail. The 
expansion of rail capacity is another tool in relieving 
congestion that will aid the movement of people and goods. This 
is an urgent economic issue to the midwest, and I ask the 
Committee to continue its advocacy for CREATE.
    I also want the leaders to honor our region, including the 
city, to develop plans that will alleviate traffic congestion, 
reduce emissions and both stimulate development and preserve 
our quality of life.
    From a suburban perspective, I believe the Olympics will 
give our region an opportunity to advance our transportation 
plans and to expedite many critical projects. If we take a 
comprehensive look at our trans---transportation needs, we 
cannot ignore the significance of the changing demographics of 
our region and the ever-increasing suburban need for expanded 
service.
    The goal in the region is in the suburbs, and even more 
importantly, the job growths in the suburbs. Since 1970, 46 
percent of all new jobs in the region have been in DuPage 
County. Over a quarter of a million workers, who live in other 
counties, commute daily into our county for employment. But the 
by-product of our growth is increased traffic congestion. This 
traffic congestion, and the chokehold it has on our economy, 
knows no boundaries.
    Projections indicate that by the year 2020, our region will 
add another 200,000 people. Our infrastructure must accommodate 
this growth. There is a critical need for reverse commute, 
suburban market-based transit, expanded commuter rail 
facilities and innovative bus routing.
    The Chicago region came to prominence as a transportation 
center. We are the crossroads of North America. Our excellent 
highway system and well-maintained infrastructure has played a 
major role in developing our region as a dynamic employment 
destination.
    But today, we are at a different crossroad. If we do not 
increase our infrastructure investments, we will not be able to 
maintain our transportation preeminence, nor our economic 
viability. There is little argument that worsening traffic 
congestion and delays have a detrimental effect on mobility, a 
key economic development and quality-of-life component. How we 
address mobility and mass transit will define our region for 
generations. A world-class city deserves a world-class transit 
system. And the CTA and RTA must remain viable for the economic 
health of our entire region.
    The Olympics will challenge us to move international 
athletes, visitors and media around the region to effortly--
effortlessly access games, entertainment and events. Chicago 
will put its best foot forward. But at the same time, we must 
also be able to move workers to the workplace and goods to the 
marketplace. While the world is enjoying the Olympics, we must 
ensure that congestion does not hamper commerce.
    Over the last two years, we have developed regional 
consensus on the need for expanded transit. Mass transit is a 
key component of our transportation plan. But full funding for 
these plans is in jeopardy. Currently, there is legislation 
offered by the Illinois House Committee on mass transit that 
would serve as a solution to our transit challenges. This 
groundbreaking legislation is supported by the CTA, the RTA, 
labor and business. The legislation designates the funds for 
the collar counties that will be used and greatly access---
accelerate critical road, safety and transit projects.
     We are all anxious to welcome the world to Chicago for the 
2016 Olympics. Adequate funding--Adequately funding our transit 
and infrastructure improvements will mean that the world will 
experience our hospitality withconvenience and efficiency. 
Hosting the summer Olympics in the United States should serve 
as a catalyst for federal, state and local governments to 
fulfill our transit needs. All partners must recognize and 
support expanded transit as a key component to attracting 
tourism and industry for the Olympics and beyond.
    If we are to go for the gold, we must acknowledge that we 
need congestion relief. We need expanded transit, improved 
roadways,----
    Mr. DeFazio. Mr. Schillerstrom, I have to ask you to 
summarize if you can.
    Mr. Schillerstrom. Very well. --better facilities and more 
flexible services.
    Mr. DeFazio. That's a good point for which to stop. Thank 
you.
    We'll now go to a short round of questions, because we do 
have another panel and we do have time constraints. I made an 
observation of what we've seen here both in some of the passion 
of the audience and in the testimony; the problems that have 
been raised today are not unique to Chicago or to Illinois, but 
are shared by all Americans.
    As we heard in the testimony by the head of the CTA, we're 
pretty much living off tax capital. A system, much of which was 
built in 1897, and the substantial amount of which was also 
built post-World War II. Tremendous investments, great 
foresight, and it's time for this generation to provide the 
same sort of investments and foresight for the future of 
Chicago, the suburbs, Illinois and the nation.
    And in response to Mr. Byrne, you may well have had some 
memories of this administration who said no additional funding 
is needed. And I've heard that refrain from the president on 
down for four years now. But this Committee, on a bipartisan 
basis, Republicans and Democrats alike, all said as we entered 
into debate four years ago over SAFETEA-LU that we needed a 
substantial increase in funding. And the Committee unanimously 
supported that. But this administration stood firm, and 
ultimately we were forced to negotiate a lower level of 
investment than the Committee felt was warranted.
    We will not repeat that mistake, nor will this 
administration be in place when we write the next bill. And 
hopefully we have the proper candidates running for president 
who understand the need to invest in our transportation future 
for all Americans, and also, to help a system like this for 
special needs and special events. So, just with that 
reflection, I thank everyone. I would also note that since Mr. 
Huberman had to leave, that Dorval Carter, who is the Executive 
Vice President for CTA, is available for questions from the 
members of panel.
    Mr. Duncan.
    Mr. Duncan. Well, thank you, Mr. Chairman, and I'll do the 
same as you've just done. Ordinarily, I ask a lot of questions, 
but because of time constraints and another panel, I'll just 
make a few comments in response to some of the testimony.
    First, I think it's very admirable that Mr. Arnot is making 
such an effort to lessen the inconvenience to the systems of 
Chicago through the measures. And also, that he's expressed 
such strong support, regardless of the Olympics, for this 
future, very necessary, transit and how to improve it. These--
these improvements are going to have to be made because of the 
one million, relative to Congressman Lipinski's ad---admission, 
but--and in addition to the age of the infrastructure, they're 
gonna have to be done regardless of the Olympics or not.
    Secretary Sees mentioned the--his concern about the time of 
the--the great length of time it takes from conception to 
completion of these projects. I remember when I chaired the 
Aviation Subcommittee and had a hearing, and they said that it 
took 14 years for the main--the newest runway at Atlanta 
Airport to be--to go from conception to completion. It took 
only 99 days of actual construction, those were done in 24-hour 
days. So, really, it only took 33 days, I was so happy to get 
the final approvals, and mainly because of all the 
environmental rules and regulations and red tape.
    We're losing out to foreign countries, in part because when 
they decide to do a major aviation or highway project, or--or 
major dam, I mean, they just go ahead and do these things, and 
do 'em in two or three years. And we could, too, if we would 
cut out some of these rules and regulations and red tape. We 
had some environ---We do have some environmental streamline 
planning provisions in SAFETEA-LU, which I hope will start 
making some progress in that area. But we've had some that we 
really need to take a look at with regard to the next hour.
    We--there is an important federal role in all of this, 
because people from Tennessee, and California, and every other 
state in the union, and even from around the country, use the 
aviation and the highway systems, rail systems in--in the 
Chicagoland. And so, there--there is an important federal role. 
On the other hand, Mr. Byrne, you know, the Federal Government 
can't do it alone. We've got almost a nine-trillion-dollar 
national debt, and worse than that, we've got over 50 trillion 
now in unfunded future pension liabilities, our Social Security 
and our military pensions and all--all of that.
    So, we've got to have federal, state and local cooperation 
while--while people from around the country and around the 
world use all these systems frequently. Still, the systems of 
Chicago and the suburbs are the--are the most frequent users. 
The--the CREATE program has--has received strong support from 
freight rail and from Metra.It received 100 million dollars in 
SAFETEA-LU, and there--there's--going back to additional 
funding, but also, we're gonna have to look at some innovated 
financing and--and maybe even some private sector initiatives 
that--that we haven't used before.
    Mr. Schillerstrom mentioned the congestion. And I have to 
tell you, the most conservative estimates, one--one of the most 
major logistics studies said that we lose about 67 billion a 
year now due to congestion. Just time and time in the--in the 
traffic jams all over the country, and that's probably a pretty 
low estimate.
    But what we're gonna have to do, Mr. Carter and Mr. 
Huberman made a great presentation of the fact, that we're 
gonna have to really prioritize these things and go hit the--
hit the bridges and the--the stations and the rail lines that 
need the most immediate work. Because we always need to try and 
improve and do better, but we can't do everything at once. With 
that, I'll give it back to the Chairman.
    Mr. DeFazio. Thank you, Mr. Duncan. You mentioned project 
streamlining. There were significant changes made in SAFETEA-
LU. The Bush Administration has not seen fit to implement those 
changes. It's only been a little more than two years, which I 
understand. So we are pushing on that, and we will continue to 
push. We felt changes were merited and it didn't take too long. 
I don't know if we did everything we need to do, but we haven't 
implemented that yet. Mr. Lipinski.
    Mr. Lipinski. Thank you, Mr. Chairman. Chicago certainly 
has great needs in transportation needs. They are not just for 
today, but for the future. And we really need to look and plan 
for the future. Our needs are so great because, really, we have 
such an extensive system that has served very well for--for 
many years, roads, rail and mass transit. But there has really 
been, as the Chairman noted, there has been a lack of federal 
support, especially in mass transit.
    Now, the opportunity that we are gonna have on--on the 
Committee comes in two years with the next highway 
reauthorization bill, which I'm hopeful is going to be half a 
trillion dollars to take care of some of our infrastructure 
needs that we have all across the country.
    And certainly, I think Chicago is a very good microcopy of 
what is going on all--all across the country. Our needs are 
only greater because our system is much more extensive. And 
now, we have the Olympics that we see coming up. But it's going 
to take the two years before this Committee can really make a 
difference. And I believe that we will, led by Chairman 
DeFazio, make a big difference in that bill.
    Now, just one quick question for Mr. Arnot. Compared to 
Atlanta, how is the Chicago system--transportation system, mass 
transit, how does that compare to what we have in place 
already, compared to where Atlanta was at--at a similar period 
of time?
    Mr. Arnot. Well, certainly, Congressman, the Chicago 
system, the infrastructure that exists, is far more significant 
than the infrastructure that existed in Atlanta prior to the 
Games. Enhancements to the existing infrastructure would 
certainly improve our ability to move people during Games. 
But--and I am certain it did not have the existing 
infrastructure that Chicago has now.
    Mr. Lipinski. But we are in a--a better position in regard 
to having the infrastructure--the sense of infrastructure in 
place to be able to move people around for the Olympic Games?
    Mr. Arnot. I would say so, yes, sir.
    Mr. Lipinski. And there are certainly needs that need to be 
dealt with today. And those are things that I am confident and 
very hopeful that will be dealt with here on the local level, 
and the Federal Government needs to step up more so we do not 
have similar problems coming at us in the future. I'm confident 
that we, on this Committee, will be doing that. Thank you, Mr. 
Chairman.
    Mr. Rush. I want to----
    Mr. DeFazio. Go ahead.
    Mr. Rush. I want to thank the Chairman. Mr. Sees, last 
Thursday the government and a number of public civilians 
celebrated the reopening of the Dan Ryan Expressway. It was a 
500-million-dollar construction project, and some of it came 
from federal funds, which I fought for and supported along with 
the Chairman and other Members of this Committee. Now, are you 
aware that the community surrounding the Dan Ryan was nearly 
shut out of contractor jobs that were part of this project?
    I want to just add that I requested and received a report 
from 2005, for how soon we can form a committee, which I shared 
with the government's office. Details of lack of vehicle 
minority to this administration project, even though the 
members of my district, for the most part, got all the gust and 
undergo, I'm concerned about that. How can we be sure that jobs 
and contracts that we develop with the transportation projects 
in Illinois can go to businesses and residents and impact their 
area again and again when we create programs? Now, we have this 
opportunity, and I--I'm just really, really concerned about 
that aspect.
    I have chaired in the contracts, and the job creation and 
the problems of these construction projects. I intend to fight 
to make sure that Chicago and the Chicago region can come to 
meet its fair share of federal transportation dollars. But at 
the end of the day, people need jobs, and infrastructure 
improved is one way for people to become employed.
    I would like to know what kind of guarantees, what kind of 
programs and qualities that we can implement henceforth to make 
sure the jobs are in contracts. Our people need equal contracts 
so we can distribute it throughout the--throughout the region.
    Mr. Sees. Well, the Governor's Office has issued that as an 
expectation of the Illinois Department of Transportation. And 
we have been meeting on a weekly basis to determine the most 
effective and creative way to not only increase the 
participation by minority contractors, but also to increase the 
availability of jobs, actual jobs for the minority workers 
throughout this state, but with special emphasis on the Chicago 
area. Because my background involves considerable years in the 
private sector and working with organized labor, I have reached 
out to organized laborers to try and become a partner with them 
to increase in the opportunities available for the minority 
community in various crafts and trades.
    I think that those will pay--Those efforts will pay 
dividends farther down the road. Because while it is important 
to create opportunities for minority construction and 
contracting firms, it is essential to the well-being of the 
communities to create good paying jobs for the average workers 
in our communities. And that's where the trades and crafts 
become so essential as partners in that effort.
    You mentioned the Dan Ryan, and particularly, we did try 
some----
    Mr. DeFazio. Mr. Sees, about 30 more seconds.
    Mr. Sees. --we did try some innovating approaches to that, 
including an on-the-job training program and other community 
outreach efforts. I think we learned a lot from the Ryan. We'll 
be applying those to the Edens and future projects. But I'd be 
happy to meet with you individually, Congressman, to discuss 
those efforts. Thank you, Mr. Chairman.
    Mr. DeFazio. Thank you. This is a lot of the concern of the 
entire Committee, the Transportation Committee, and we 
certainly share your concerns in this matter. With that, I 
thank the panel. Thank you for your time, your testimony. And 
you are now dismissed. And we move to the second panel quickly. 
If the second panel can try and hold their testimony to about 
four minutes each, because we'd like to----
    [recess.]
    Mr. DeFazio. Okay. We've got Mr. Pagano, Mr. Whitley, Ms. 
Holst, Mr. Kennedy and Mr. Ross. You can all take your seats 
and we'll move along.
    Okay. Let's begin. Mr. Pagano, and as I said, if you can--I 
know there is a lot to say, but--and I regret that we've got--
we have votes this evening and we have to catch a plane. So, if 
you can do what you were going to do in about four minutes 
each, I'd really appreciate that.

 TESTIMONY OF PHIL PAGANO, EXECUTIVE DIRECTOR, CHICAGO METRA, 
 CHICAGO, ILLINOIS; DOUGLAS WHITLEY, CO-CHAIR, TRANSPORTATION 
FOR ILLINOIS COALITION, SPRINGFIELD, ILLINOIS; KATHLEEN HOLST, 
 EXECUTIVE DIRECTOR, ILLINOIS ROAD AND TRANSPORTATION BUILDERS 
    ASSOCIATION, ITASCA, ILLINOIS; DAVID KENNEDY, EXECUTIVE 
    DIRECTOR, AMERICAN COUNCIL OF ENGINEERING COMPANIES-IL, 
  SPRINGFIELD, ILLINOIS; T.J. ROSS, EXECUTIVE DIRECTOR, PACE 
                          SUBURBAN BUS

    Mr. Pagano. I will do that, Mr. Chairman. Let me thank the 
Committee for inviting us to this hearing today, and to 
recognize both Congressman Lipinski and Rush, who have been 
very important to transportation not only this week, but more 
particularly before for Metra.
    Very quickly, Mr. Chairman, Metra is the largest commuter 
railroad in the United States. We have the greatest amount of--
of--of service, amount of equipment, the amount of manpower, 
and we definitely have 11 rail lines. We serve an area about 
the size of Connecticut. And we're second in ridership. And 
frankly, we're both very quickly and very soon, I think, will 
be passing along Elburn, it would be another line in ridership.
    Clearly, capital is a key to commuter rail, and frankly, to 
any large rail public transit system in the United States. Very 
early on in our existence, we coined the phrase, "The more you 
capitalize, the less you subsidize." And we have used federal, 
state and local dollars to bring back a system that was in a 
state, frankly, of total disrepair. We put in 500 miles of 
rail, millions of ties, many stations, changed the entire view 
of our system. We literally had commuter railcars that you 
could have looked on the floors and seen the roadway, that has 
all been changed.
    We have been able, in the last 20 years, to have the 
highest on-time performance in the United States, 97.6 percent. 
And we also have the highest in public ratio of any rail system 
in the United States, at 57.8 percent. We have tried, to 
thebest of our abilities, to use federal funds as carefully as 
possible. As you know, several years ago we were able to get 
through the Illinois delegation, in particular, Speaker 
Hastert, three full funding grant agreements for the UP West 
Line, North Central and SouthWest Service. I'm happy to say 
that in December of 2006, we brought those three projects one 
year ahead of schedule and 50 million dollars under budget.
    We are here today to talk about other projects that we also 
want to move forward on in the same--same way. As other 
speakers before you have identified, the--this region has 
changed. Clearly, Chicago is a central hub, that there are more 
jobs and people in the suburban region and we need to change 
our system. This system was built in the early 1900s, and it 
was primarily built to bring suburban people to downtown. We 
now have to change that and get into reverse commute and 
suburban to suburban.
    Three projects that we--four projects that we have 
identified will allow us to do that. On the UP Northwest and 
West Line, we're gonna change--continue to change and get into 
reverse commute in inner suburban to those rail lines that 
carry approximately 30 percent of our riders. Our two New Start 
projects, the SouthEast Service Line, will add another spoke to 
the hub, and will bring the riders from the southeast areas of 
Cook and Will County where there is a need for economic 
development.
    And then finally, we have the STAR Line, which is the first 
system to be proposed in the United States that will bring, 
actually, suburban to suburban ridership. We will start off at 
O'Hare Airport and go down to Joliet, it's approximately 50 
miles. We will touch many other major corporate centers in 
Chicago, as well as hospitals and university systems.
    Clearly, with the guidance of Congressmen Lipinski or Rush, 
and the Illinois delegation, and working with your Committee, 
we would hope that we would be able to get the necessary funds 
to move forward with our projects, not only for the 2016 
Olympics, but for the region itself. Thank you.
    Mr. DeFazio. Thank you, Mr. Pagano. Mr. Whitley.
    Mr. Whitley. Thank you, Chairman DeFazio, Congressman 
Duncan, Congressman Rush and Lipinski. I'll try to be brief. I 
thought the first panel hit upon almost all the major points 
that needed to be brought forth. And Congressman Duncan and 
Congressman DeFazio, the questions that you made and the 
statements you made made it clear to me that you already are 
very well-informed about these issues, as you all point out, 
that are national. There are three or four points I would like 
to make.
    Number one, Chicago has put up the tremendous 
infrastructure, both in rail and in interstate highway systems, 
and in aviation. So, we are well-positioned to host the 
Olympics in 2016. What is important that you take away, 
however, is that this is an opportunity to deal with some of 
the infrastructure needs that we have, which are primarily 
driven by congestion and age.
    And when we're gonna be hosting the world, it's important 
that we have a good presence and a good image to that world, so 
that people can be moved around our metropolitan area to these 
various venues with the greatest amount of ease and efficiency. 
That means that we must continue to invest in the 
modernization; and we must continue to invest in the expansion; 
and we must continue to invest in greater sufficiency. And 
that's, in my estimation, in the county, technology, and, of 
course, now in the modern era of security.
    These are components that were not a part of the original 
investment infrastructure in Chicago, and the Chicago 
metropolitan area. It must be entertained as we pursue to move 
forward to the 2016 Olympics. I appreciate very much the fact 
that you are here, that you're holding this field hearing. That 
you're experiencing firsthand what we have, and what we hope to 
build upon so that we will be a great host city for those 2016 
Olympics.
    If you will continue, in the United States Congress, to 
champion increased funding for infrastructure as you did four 
years ago, and in the comments you made a moment ago, that 
would go a long way towards helping all of us meet the needs, 
not only of Chicago and the host city for the 2016 Olympics, 
but clearly, United States, which as you pointed out, needs a 
new generational commitment to infrastructure investment as we 
saw in the Eisenhower era. Because 50 years ago, that 
generation invested in their future, and that is exactly what 
we have to do today, is invest in our future. Thank you very 
much for the hearing.
    Mr. DeFazio. Thank you, Mr. Whitley. Ms. Holst.
    Ms. Holst. Good morning, Mr. Chairman, Congressman Duncan, 
Congressman Lipinski and Congressman Rush. My name is Kathi 
Holst, and I am president of the Illinois Road and 
Transportation Builders Association, the largest association in 
design and construction professionals in Illinois. The 
RoadBuilders have supported and will continue to support the 
efforts of Chicago Mayor Daley and other members of the Chicago 
Olympic Committee to bring the 2016 Summer Olympics to our 
city.
    You hear from others about the grandeur and desirability of 
Chicago as a world-class city to host the 2016 Games. Many tout 
Chicago's unique geography, transportation hub and cultural and 
racial diversity that acts as a nexus to not only North America 
but to the world community at large. No where is that better 
evidenced than in the design and construction industry 
responsible for building, expanding and maintaining the city's 
unique architecture and public infrastructure.
    Chicago is much more than the boasts that earned it the 
title of the "Windy City" back in 1876. It is a city that has 
walked the walk, so to speak. Before there was an interstate 
system, Illinois and this region constructed the midwest's 
first limited access highway system, the Illinois Tollway, 
which 60 years later still stands as the pre-eminent toll 
system in the country.
    The Chicago--The construction industry in this region took 
the old Douglas Airframe plant and made it into the world's 
busiest airport. It even made the Chicago River turn backwards 
away from the lake to insure the health and safety of its 
citizens.
    Mr. Chairman, my two colleagues have prepared statements 
that will be placed into record. The comments of Mr. Tim 
Faerber, chairman of our planning and design division, deal 
with the permitting and design issues unique to the Olympics 
and what you can do to assist in that endeavor. Those comments 
are augmented by those of Mr. Ken Aldrige, president of 
Aldridge Electric, one of the largest specialty subcontractors 
in this county, who discusses the construction capabilities and 
needs of the contracting community.
    While the design challenges of an Olympics are many, the 
IRTBA planning and design division has 89 of the largest and 
most sophisticated designs and consulting firms in the world 
and they are ready to begin work. The design firms within the 
association are responsible for nearly four billion dollars 
worth of construction activity by all levels of Illinois 
government. Six of the world's largest firms have offices and 
personnel in Chicago, and they are augmented by over 30 other 
national firms and nearly 50 regional Illinois firms. There is, 
perhaps, no element of transportation design and construction 
oversight that is not done by an IRTBA member firm.
    As such, we boast the people who have been meeting the 
unique and special challenges of this type of infrastructure 
work. In fact, we have already begun to research the '04 games 
in Athens and the 2012 games set for London. The lessons 
learned from those games and others serve to tell us what kind 
of infrastructure we will need to build for Chicago in 2016. 
One thing we know for certain is, Chicago has a complete 
network of transportation in place to serve the Olympics.
    As we reflect on the planning for the 2016 Games, we 
recognize the plan's compactness and proximity of the venues 
that will be utilized and impacted. There is clearly a 
longitudinal nature of the Chicago Olympic venues from the 
tennis and aquatic facilities in the north to the Olympic 
Village and boating facilities in the south, the lake forms the 
common denominator to all travel. The need to transport 
athletes securely and in a timely fashion, along with the 
ability of the public to move amongst the venues is the key. 
Simply stated, athletes and their fans need to get from the 
Olympic Village to their respective venues quickly, safely and 
on time.
    A very important consideration for Chicago is the 
acknowledgment that we live in dangerous times. Ever since the 
tragedy in Munich, the Olympic movement has had an ever-
increasing emphasis on athlete security, and most recently, 
spectator security. However, guaranteeing that the spectators 
and visitors to the games are equally safe becomes an even 
greater challenge.
    The Olympic plan for Chicago calls for no vehicular traffic 
in the main stadium area. Thus, all spectators and visitors 
must be transported by a mass transit system capable of 
handling such numbers. Thankfully, the CTA in conjunction with 
the RTA has that type of experience that comes from moving over 
two million riders per day.
    So, what does the Olympic Committee need from Congress? 
First of all, it needs the financial resources that will insure 
that the best and the brightest are on the case, making sure 
that what is designed and built is indeed the safest and most 
reliable system possible. Secondly, it will need a 
congressionally mandated and sanctioned multi-agency 
coordinated permit review process. Typically, an improvement 
project takes nearly 10 years to plan, only two to three plan, 
design, construct and put into operation. Only two to three of 
those years is actual construction. It is often the view, 
approval and funding processes that constitute nearly half of 
that timeframe.
    I want--I want to underscore that no environmental 
regulations are meant to be avoided or disre---disregarded. It 
is--We're simply in need of our procurement process that is 
updated in a timely manner.
    Mr. DeFazio. Thank you.
    Ms. Holst. Thank you very much.
    Mr. DeFazio. Thank you. Mr. Kennedy.
    Mr. Kennedy. Thank you, Mr. Chairman and Members of the 
Committee. My name is David Kennedy, and I serve as the 
executive director of the American Council of Engineering 
Companies of Illinois. We're a statewide association, over 230 
engineering firms, together we employ over 10,000 engineers, 
architects, scientists and support personnel. And our members 
design a lot of things, including transportation projects. And 
frankly, we look forward to designing the Olympic Village in 
the future.
    Mr. Chairman, I kind of fashion myself as a person who gets 
anything. And I just want to say to you that, and all the 
Members of the Committee, thank you, thank you and thank you 
for being here. Because very frankly, I think your presence 
speaks formidably, all of us witnesses can talk about today 
because it visibly shows your support, not only for 
transportation, but frankly, for our country's bid for the 
Olympics in 2016. This really isn't--This is no longer 
Chicago's bid, this is our country's bid. And your presence 
shows your support of that, your presence and that of your 
colleagues. Thank you very much.
    I also want to recognize Congressman Lipinski, and thank 
him for his interest in transportation in serving in this 
Committee. I think Congressman Rush can tell you, we're very 
proud of our congressional delegation in this state, they so 
wisely assign themselves to various Committees all across the 
board so our city's interest and our state's interest is well 
represented. Now, we're looking for the new Congressman 
Lipinski, Dan Lipinski, to represent our city and our region in 
transportation issues at the federal level. Thank you for your 
interest and service, Congressman Lipinski.
    I just want to make two quick points regarding 
transportation issues, that will help us in our Olympics. We 
all know that you're gonna have a reauthorizationbill in 2009. 
We all know that the trust in our trust fund is going to be 
running a deficit by that point. We have been able to do so 
many wonderful things over these many years with that highway 
trust fund. I think it goes back to the Eisenhower years if you 
added the interstate highway system. So, please, when you deal 
with this issue in a couple years, please sustain it, and 
please maintain it, and please enhance it just as I know you 
have already expressed an interest in doing.
    The second point I'd like to make for you regarding the 
highway program, which will help us in the Olympics, deals with 
being very cautious about public private partnerships. There 
are people, including sources in this administration, who count 
this as the only solution to our highway funding. Frankly, I 
think public private partnerships is just another of many tools 
that we can use to enhance our transportation improvements. So, 
please do not accept the thought that this is the only way to 
solve our transportation funding, because it's not, it's just 
one of many ways to help the situation. The Olympics itself may 
provide an opportunity for what we can do to improve both 
public and private partnership projects. So again, please be 
cautious about those.
    Our country has a great history of transportation. We're 
proud to say--we brag this is the Land of Lincoln. Congressman 
Duncan, of course, will tell us this is where Abraham Lincoln 
was born. But we play our share of fun, that if Abraham Lincoln 
could be with us now in the expansion, but also to the 
railroads in the 1800s.
    And then another great midwestern of why Eisenhower created 
the state highway system, today we have this great aviation 
system. So, as we are now in the 21st century, and you're gonna 
be facing a new administration here soon, we hope--I don't know 
what the future holds, but this is a great country, in part at 
least, because of our transportation system. So, thank you and 
continue to work towards that.
    And then last, Mr. Chairman and Members of the 
Subcommittee, I would encourage you to continue to support 
those projects that help us here locally in economic 
development and otherwise, very frankly with the Olympics, we 
are very excited. We see this as an opportunity to improve an 
already great transportation system. So, we're going to be 
knocking on your door over the next couple of years, especially 
after we win this bid to bring the Olympics back to our 
country. Thank you.
    Mr. DeFazio. Thank you, Mr. Kennedy. Mr. Ross.
    Mr. Ross. Thank you, Mr. Chairman and Members of the 
Committee. My name is T.J. Ross. I'm the Executive Director of 
Pace. We provide suburban bus services outside the City of 
Chicago to about five million people in a 3,500-square-mile 
area, and we also provide all ADA complimentary surveys and 
services throughout northeastern Illinois.
    It's a little ironic, of course, that we're talking about 
an event nine years from now when the concentration in my mind, 
and many of our minds, is six days from now. We are looking, of 
course, I want to mention, that we're really pushing our state 
legislator--legislation to act on Senate Bill 572, which will 
help us avoid the service cuts and fare increases that start 
next week and continue on into January.
    I'd like to make a few brief points about federal 
investment in transportation pretty--pretty quick here. First 
of all, Illinois is a donor state. Gas tax revenue, I think we 
get about 93 cents back on the dollar that we send in. And 
northeastern Illinois is a donor area to the rest of the state 
of Illinois. On top of that, our 5309 bus discretionary money, 
we normally get through the whole state in the neighborhood of 
four to 10 million dollars a year. That is in contrast to my 
home state, Iowa, usually gets more than Illinois does. But the 
majority of people that ride public transit in northeastern 
Illinois ride on buses.
    So, we're looking for a greater share than 5309 
discretionary bus and bus facility money. As my partner in 
transit, Phil Pagano has said, that he--having this change in 
north Illinois, two-thirds of the growth is in the suburbs, and 
we are looking at multiple origins and multiple destination 
patterns throughout northeastern Illinois, and we'll be looking 
at the same thing for the Olympics.
    Our big push at Pace is in technology. Anything that I can 
do to speed up my system is going to improve my productivity 
and improve my attractiveness to my passengers and to people 
who are using automobiles right now. So with that, we are going 
to try to signal priority into large projects in south Cook 
that should be on the--happening 12 months from now. Bus rider 
transit, which is being pushed, and then, of course, upgrades 
to existing infrastructure, such as buses on shoulders, HOV 
lanes, and then a system of Park and Ride lots as well.
    Over the last four years, Illinois has not had a capital 
funding program from public transit. And the one that--and as a 
result, it's a disinvestment as we talked about. The--Right 
now, the state proposal is about 429 million for a five-year 
program. I want to make this point that, that our five-year 
program for Pace would consume that full 429 million dollars. 
That is--It gives you an idea of how much money is really 
needed here at CTA and Metra. We know they need far, far more 
than that. Specific to the Olympics, we know the efficient 
system is essential to a smooth operation of this massive 
event, and you can't possibly deal with all new rail lines, the 
bus system will be a big part of it, as it is--as it was in 
L.A., as it was in Atlanta, as it was in Salt Lake City.
    So, in closing, I'm looking forward to the challenge of 
providing transportation for the 2016 Olympics. However, if 
Senate Bill 572, that's pending in legislature, does not pass, 
we could be until 2016 before we recover from the loss of 
ridership and the loss of service in the region. Thank you for 
your time. And I'll be happy to answer any questions.
    Mr. DeFazio. Thank you.
    I'll turn to Mr. Duncan.
    Mr. Duncan. I'll be very brief and just make a few 
comments. Mr. Chairman, thank you very much. First of all, I 
want to thank Congressman Lipinski, we all received the 
briefing materials on the needs of this area. And--and also, I 
had the privilege of having dinner last night with Congressman 
Lipinski and his father, and we discussed many of these things 
at that time also.
    This had to have been very important, and I appreciate all 
of the witnesses taking time out of their busy schedules to be 
with us. Mr. Lipinski and I--our young--my first three children 
went to the University of Tennessee, but my youngest is a 
student at Lincoln Memorial University. And his very serious 
girlfriend is from Matoon, Illinois. And, Mr. Ross, my mother 
moved from Iowa after college, and my other grandparents, both 
of them were born and raised in Illinois. So, I have a great 
interest in this state.
    I said on an interview on WGN this morning that I'm a very 
conservative Republican. And I don't--I don't believe in 
spending hundreds of billions of dollars in other countries. In 
fact, now this morning--there's six Republicans who voted 
against the war in Iraq at the very beginning. And I note that 
that was the cause of those on that view. But I do believe in 
doing some things in this country.
    I believe the first obligation of our--of the U.S. Congress 
should be to the American people. And we have a lot of needs in 
this country, and with all the time I've attended to those 
needs, and I was fortunate to the extent that I possibly can 
again. I'm sorry that I do have to slip out at this point to 
catch my ride. Thank you very much.
    Mr. DeFazio. Same to you. And thank you, Ranking Member 
Duncan. I'll be not too far behind you. I have just a couple of 
brief questions.
    Mr. Kennedy, you mentioned private-public partnerships. And 
I think you put it in proper respect, that you had concerns. It 
seems that the Bush Administration feels that if we would just 
privatize, we would solve our nation's infrastructure needs. I 
think you gave me the answer, but what percent of our problems 
do you think are being met or could be met by public-private 
partnerships?
    Mr. Kennedy. Mr. Chairman, I'm not sure I can put a percent 
on that. But I can say, where it may help us is in some of the 
new projects. For instance, I think the City of Chicago kind of 
led by example, how they handled the Skyway and they've taken 
that--from that. However, there has been discussions about 
leasing other facilities. And the wisest person who is an 
expert in transportation once told me, this is very similar, 
like taking the facilities of our parents generation, that 
greatest generation built and paid for, our generation gets the 
privilege of using it. If we're not careful, we're now going to 
turn around and sell or lease those facilities, and spend the 
money from it and leave it to our kids to pay for it over 
again.
    So again, I'm noting there are ways you can have public 
private partnerships, and they can be successful and resources 
can be used for good things. But we need to approach it very 
cautiously. I did note for Chairman Oberstar as a late issue, a 
letter outlining concerns of the Transportation Committee that 
they ask the very thing we want to hear.
    Mr. DeFazio. That was actually a joint letter with--with 
me, expressing concern about protecting both public interest 
for the future generations and maintaining the integrity of 
transportation structures. Leasing what would be profitable 
sections of a system for private interest, while ignoring the 
entirety of the system which benefits public interest is poor 
policy. Thank you for appearing and noticing the letter.
    Mr. Kennedy. It was a good letter.
    Mr. DeFazio. Thank you. Mr. Pagano, this is such an 
astounding number, I have just got to ask you, I think we 
under-appreciate the contribution that mass transit makes to 
avoid congestion. And you said in your testimony, in the 
absence of transit, 29 additional lanes and expressways would 
need to be constructed to downtown. Can you stand by that?
    Mr. Pagano. Oh, yeah, I can provide the Committee with 
the--how we came up with the information on that, we even 
worked with the Illinois Department of Transportation. I mean, 
the key is, that we carry somewhere about 100 to some odd 
thousand people between 6:00 a.m. And 8:30 a.m. And doing the 
calculations, and also how many people will travel on the 
highways, that it would equate to--to that number.
    Mr. DeFazio. Yes, I'd appreciate it if you would provide 
it. Because again, this Administration does not seem to 
appreciate the contribution of transit to avoid congestion. And 
we would be happy to receive that material.
    Mr. Pagano. Mr. Chairman, if I may on your comment about 
public private use, we like to use ourselves in this region as 
an example. From the Metra prospective, we have worked very 
well with the freight railroads, in which our capital projects 
in many instances are divided up between a federal public 
contribution, and then the freight railroads come in and make 
their contribution to do the projects that we are going to 
improve on our infrastructure. The CREATE project is another 
example of both public and private issues.
    Mr. DeFazio. Thank you. Just in reflecting on the testimony 
of this panel and the panel before, before I turn to my 
colleague, again, I think we have underlined, outlined and 
emphasized the need for additional investment in the country, 
not just for special events like the Olympics, but to maintain 
assets which we try--by prior generations, and to enhance those 
assets to serve current and future generations. And I believe 
thus far we're dropping the ball.
    We do need more investment. And we do need to better meet 
the needs of today's commuter systems. And I think today's 
testimony is going to be echoed at every hearing we hold around 
the country, and all the cities that aren't looking to have the 
Olympics, and all the rural areas that are trying to get their 
goods to the market, and all the ports that are trying to bring 
in products from overseas. Hopefully, somebody will turn that 
around and be shipping products out of the U.S. again, but 
that's a topic for another day. With that, I turn to Mr. 
Lipinski for any closing comments or questions.
    Mr. Lipinski. I'd like to thank you, Mr. Chairman, for 
bringing the Subcommittee out here to hold this hearing. I 
think it's a great opportunity to highlight the need that we 
have in transportation in the--in the Chicago area. And these 
are needs, obviously, that are all foreseen. In other words, 
people of Chicago need transportation hubs as it is for the 
country. And we've been talking about the Olympics, which 
hopefully the Olympics can be, really, another great year 
wakening for the city and be able to highlight--spotlight the 
city for the world. An opportunity that we need to make sure 
that we do everything we can to--to take advantage of.
    But I think it's important that clearly it's been made 
clear to all of us, who have--those who did not already know, 
certainly most of us do, about the current situation that's 
going on right now with mass transit, which, I believe, is at 
least partly on the plate of the lack of funding from the 
Federal Government. But right now, I certainly urge our 
legislators in Springfield to deal with this problem as quickly 
as they can, it's a very important issue for many, many people. 
I've spent hundreds of hours in my lifetime on CTA buses. I 
know how--how critical it is to have this old mass transit 
system up and running and as efficient as possible.
    So there again, I urge the legislators to do that. And at 
the federal level, I'm confident that with the leadership on 
this Subcommittee of Chairman DeFazio, and I'm certainly going 
to be working as hard as I can for the Chicago region to 
fulfill those needs that we have in transportation, and to work 
together with our delegation, work with Bobby Rush, and anyone 
in the delegation to do what we can for the various great needs 
that--that--that we face. I think this was a great opportunity. 
I'd like to bring this forward to the Committee to where the 
decisions are going to be made on this bill in the next two 
years. Thank you, Chairman.
    Mr. DeFazio. All right, thank you. I want to again thank 
you for your leadership in bringing the Committee here to 
Chicago. Congressman Rush.
    Mr. Rush. Thank you, Mr. Chairman. Mr. Chairman, first of 
all, let me join with my colleague by thanking you again for 
taking the time out from your busy schedule to come toChicago 
to hold this hearing. I want to also thank you for allowing me 
as a non-member of the Sub---the Subcommittee, and Member of 
the Committee, to participate wholly and fully in this hearing. 
And I really thank you so much.
    I also wanted to ask the Ranking Members to--I'd like to 
submit questions to the witnesses in writing and ask that----
    Mr. DeFazio. Without objection, the Committee would reserve 
that privilege, and certainly extend that to you.
    Mr. Rush. Thank you so much, Mr. Chairman.
    Mr. Chairman, I just want to conclude by joining with 
Congressman Lipinski, as you noted today or seen today, there 
has been--there is a lot of passion about the--not necessarily 
tomorrow's transportation issues, but today's transportation 
issues. I think that's a serious problem in our state, our 
city, and that there are citizens who are scheduled to 
experience some dire transportation issues in the next few 
days.
    And I know that this--that is not in the jurisdiction of 
this Subcommittee or the Congress. But, Mr. Chairman, we need 
to do all that we can to emphasize to the State, the 
Legislature, to the Government, and to all of the state 
leaders, that this is an issue that must get addressed. And 
that lack of the movement in regards to resolving this 
particular problem, I think that our delegation speaks out for 
our delegation, and will be severely and sorely disappointed in 
the General Assembly if they don't get this issue resolved.
    They can't come to us in Washington and expect us to 
cooperate with them, when they don't cooperate with each other. 
And they are our constituents. And demonstrated by the outburst 
of today, our constituents are suffering. We need cooperation 
at the state level. We get only State and Federal cooperation. 
It doesn't make sense. It's shameful, and it's an atrocity that 
we can't get this issue resolved and get it resolved from the 
Democrats. It wouldn't be so different if we were fighting 
Republicans and not Democrats. But this is Democrats. And these 
Democrats need to grow up and get this issue resolved so that 
our citizens can have public transportation. Thank you very 
much.
    Mr. DeFazio. Thank you. And if you have any final 
questions, submit them. We are now adjourned.
    [Whereupon, at 11:55 a.m., the Subcommittee was adjourned.]
    [GRAPHIC] [TIFF OMITTED] 39945.005
    
    [GRAPHIC] [TIFF OMITTED] 39945.006
    
    [GRAPHIC] [TIFF OMITTED] 39945.007
    
    [GRAPHIC] [TIFF OMITTED] 39945.008
    
    [GRAPHIC] [TIFF OMITTED] 39945.009
    
    [GRAPHIC] [TIFF OMITTED] 39945.010
    
    [GRAPHIC] [TIFF OMITTED] 39945.011
    
    [GRAPHIC] [TIFF OMITTED] 39945.012
    
    [GRAPHIC] [TIFF OMITTED] 39945.013
    
    [GRAPHIC] [TIFF OMITTED] 39945.014
    
    [GRAPHIC] [TIFF OMITTED] 39945.015
    
    [GRAPHIC] [TIFF OMITTED] 39945.016
    
    [GRAPHIC] [TIFF OMITTED] 39945.017
    
    [GRAPHIC] [TIFF OMITTED] 39945.018
    
    [GRAPHIC] [TIFF OMITTED] 39945.019
    
    [GRAPHIC] [TIFF OMITTED] 39945.020
    
    [GRAPHIC] [TIFF OMITTED] 39945.021
    
    [GRAPHIC] [TIFF OMITTED] 39945.022
    
    [GRAPHIC] [TIFF OMITTED] 39945.023
    
    [GRAPHIC] [TIFF OMITTED] 39945.024
    
    [GRAPHIC] [TIFF OMITTED] 39945.025
    
    [GRAPHIC] [TIFF OMITTED] 39945.026
    
    [GRAPHIC] [TIFF OMITTED] 39945.027
    
    [GRAPHIC] [TIFF OMITTED] 39945.028
    
    [GRAPHIC] [TIFF OMITTED] 39945.029
    
    [GRAPHIC] [TIFF OMITTED] 39945.030
    
    [GRAPHIC] [TIFF OMITTED] 39945.031
    
    [GRAPHIC] [TIFF OMITTED] 39945.032
    
    [GRAPHIC] [TIFF OMITTED] 39945.033
    
    [GRAPHIC] [TIFF OMITTED] 39945.034
    
    [GRAPHIC] [TIFF OMITTED] 39945.035
    
    [GRAPHIC] [TIFF OMITTED] 39945.036
    
    [GRAPHIC] [TIFF OMITTED] 39945.037
    
    [GRAPHIC] [TIFF OMITTED] 39945.038
    
    [GRAPHIC] [TIFF OMITTED] 39945.039
    
    [GRAPHIC] [TIFF OMITTED] 39945.040
    
    [GRAPHIC] [TIFF OMITTED] 39945.041
    
    [GRAPHIC] [TIFF OMITTED] 39945.042
    
    [GRAPHIC] [TIFF OMITTED] 39945.043
    
    [GRAPHIC] [TIFF OMITTED] 39945.044
    
    [GRAPHIC] [TIFF OMITTED] 39945.045
    
    [GRAPHIC] [TIFF OMITTED] 39945.046
    
    [GRAPHIC] [TIFF OMITTED] 39945.047
    
    [GRAPHIC] [TIFF OMITTED] 39945.048
    
    [GRAPHIC] [TIFF OMITTED] 39945.049
    
    [GRAPHIC] [TIFF OMITTED] 39945.050
    
    [GRAPHIC] [TIFF OMITTED] 39945.051
    
    [GRAPHIC] [TIFF OMITTED] 39945.052
    
    [GRAPHIC] [TIFF OMITTED] 39945.053
    
    [GRAPHIC] [TIFF OMITTED] 39945.054
    
    [GRAPHIC] [TIFF OMITTED] 39945.055
    
    [GRAPHIC] [TIFF OMITTED] 39945.056
    
    [GRAPHIC] [TIFF OMITTED] 39945.057
    
    [GRAPHIC] [TIFF OMITTED] 39945.058
    
    [GRAPHIC] [TIFF OMITTED] 39945.059
    
    [GRAPHIC] [TIFF OMITTED] 39945.060
    
    [GRAPHIC] [TIFF OMITTED] 39945.061
    
    [GRAPHIC] [TIFF OMITTED] 39945.062
    
    [GRAPHIC] [TIFF OMITTED] 39945.063
    
    [GRAPHIC] [TIFF OMITTED] 39945.064
    
    [GRAPHIC] [TIFF OMITTED] 39945.065
    
    [GRAPHIC] [TIFF OMITTED] 39945.066
    
    [GRAPHIC] [TIFF OMITTED] 39945.067
    
    [GRAPHIC] [TIFF OMITTED] 39945.068
    
    [GRAPHIC] [TIFF OMITTED] 39945.069
    
    [GRAPHIC] [TIFF OMITTED] 39945.070
    
    [GRAPHIC] [TIFF OMITTED] 39945.071
    
    [GRAPHIC] [TIFF OMITTED] 39945.072
    
    [GRAPHIC] [TIFF OMITTED] 39945.073
    
    [GRAPHIC] [TIFF OMITTED] 39945.074
    
    [GRAPHIC] [TIFF OMITTED] 39945.075
    
    [GRAPHIC] [TIFF OMITTED] 39945.076
    
    [GRAPHIC] [TIFF OMITTED] 39945.077
    
    [GRAPHIC] [TIFF OMITTED] 39945.078
    
    [GRAPHIC] [TIFF OMITTED] 39945.079
    
    [GRAPHIC] [TIFF OMITTED] 39945.080
    
    [GRAPHIC] [TIFF OMITTED] 39945.081
    
    [GRAPHIC] [TIFF OMITTED] 39945.082
    
    [GRAPHIC] [TIFF OMITTED] 39945.083
    
    [GRAPHIC] [TIFF OMITTED] 39945.084
    
    [GRAPHIC] [TIFF OMITTED] 39945.085
    
    [GRAPHIC] [TIFF OMITTED] 39945.086
    
    [GRAPHIC] [TIFF OMITTED] 39945.087
    
    [GRAPHIC] [TIFF OMITTED] 39945.088
    
    [GRAPHIC] [TIFF OMITTED] 39945.089
    
    [GRAPHIC] [TIFF OMITTED] 39945.090
    
    [GRAPHIC] [TIFF OMITTED] 39945.091
    
    [GRAPHIC] [TIFF OMITTED] 39945.092
    
    [GRAPHIC] [TIFF OMITTED] 39945.093
    
    [GRAPHIC] [TIFF OMITTED] 39945.094
    
    [GRAPHIC] [TIFF OMITTED] 39945.095
    
                                    

</pre></body></html>
